     DEPARTMENT OF HEALTH & HUMAN SERVICES                                Office of Inspector General

                                                                          Office of Audit Services, Region VI
                                                                          1100 Commerce Street, Room 632
                                                                          Dallas, TX 75242



March 2, 2010


Report Number: A-06-09-00048

Dr. Robert W. Bishop
Vice Chancellor for Institutional Compliance
University of Arkansas for Medical Sciences Medical Center
4301 West Markham Street, 632
Little Rock, AR 72205

Dear Dr. Bishop:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Oxaliplatin Billing at University of Arkansas for
Medical Sciences Medical Center for Calendar Year 2005. We will forward a copy of this report
to the HHS action official noted on the following page for review and any action deemed
necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me at
(214) 767-8414 or contact Paul Chesser, Audit Manager, at (501) 225-8114 or through email at
Paul.Chesser@oig.hhs.gov. Please refer to report number A-06-09-00048 in all correspondence.

                                             Sincerely,



                                             /Patricia Wheeler/
                                             Regional Inspector General
                                               for Audit Services

Enclosure
Page 2 – Dr. Robert W. Bishop

Direct Reply to HHS Action Official:

Nanette Foster Reilly, Consortium Administrator
Consortium for Financial Management & Fee for Service Operations
Centers for Medicare & Medicaid Services
601 East 12th Street, Room 235
Kansas City, MO 64106
rokcmora@cms.hhs.gov
 Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




REVIEW OF OXALIPLATIN BILLING AT
  UNIVERSITY OF ARKANSAS FOR
MEDICAL SCIENCES MEDICAL CENTER
    FOR CALENDAR YEAR 2005




                        Daniel R. Levinson
                         Inspector General

                           March 2010
                          A-06-09-00048
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XVIII of the Social Security Act, the Medicare program provides health
insurance for people age 65 and over and those who are disabled or have permanent kidney
disease. The Balanced Budget Act of 1997, P.L. No. 105-33, authorized the implementation of
an outpatient prospective payment system (OPPS) effective August 1, 2000. Under the OPPS,
Medicare makes additional temporary payments, called transitional pass-through payments, for
certain drugs, biologicals, and devices.

Oxaliplatin is a chemotherapy drug used to treat colorectal cancer. Outpatient hospitals received
transitional pass-through payments for oxaliplatin furnished to Medicare beneficiaries from July
1, 2003, through December 31, 2005. Medicare required hospitals to bill one service unit for
each 5 milligrams of oxaliplatin that a beneficiary received.

The University of Arkansas for Medical Sciences Medical Center (the hospital) is an acute-care
hospital in Little Rock, Arkansas, that has 400 Medicare-certified beds. We reviewed oxaliplatin
payments to the hospital for services provided to Medicare beneficiaries during calendar year
(CY) 2005.

OBJECTIVE

Our objective was to determine whether the hospital billed Medicare for oxaliplatin in
accordance with Medicare requirements.

SUMMARY OF FINDING

The hospital did not bill Medicare for oxaliplatin in accordance with Medicare requirements.
Specifically, the hospital billed for 10 times the number of units that was actually administered
on all 11 claims that we reviewed. For these claims, the hospital originally billed for oxaliplatin
services using an incorrect HCPCS code (J9263), which listed a unit as 0.5 milligrams. The
hospital said that Medicare returned the claims stating that HCPCS code J9263 was not a valid
code for OPPS. The hospital then resubmitted the claims using the correct HCPCS code
(C9205), which had a 5-milligram billing unit. However, on the resubmitted claims, the hospital
calculated the number of units billed to Medicare based on the 0.5-milligram unit amount of
oxaliplatin associated with HCPCS code J9263. Due to this unit billing error, the hospital
received overpayments totaling $225,206 for the excessive oxaliplatin units that it billed during
CY 2005.

RECOMMENDATIONS

We recommend that the hospital:

   •   return the $225,206 overpayment to the fiscal intermediary and

   •   establish procedures to ensure that units of drugs billed correspond to units of drugs
       administered.
                                                 i
HOSPITAL COMMENTS

In its comments on our draft report, the hospital stated that it had repaid the overpayment and
instituted procedures and provided training to ensure that units of drugs billed correspond to
units of drugs administered. The hospital’s comments appear in their entirety as the Appendix.




                                               ii
                                                  TABLE OF CONTENTS

                                                                                                                                     Page

INTRODUCTION....................................................................................................................1

          BACKGROUND ...........................................................................................................1
              Outpatient Prospective Payment System ...........................................................1
              Oxaliplatin .........................................................................................................1
              University of Arkansas for Medical Sciences Medical Center ..........................1

          OBJECTIVE, SCOPE, AND METHODOLOGY .........................................................1
               Objective ............................................................................................................1
               Scope ..................................................................................................................2
               Methodology ......................................................................................................2

FINDING AND RECOMMENDATIONS .............................................................................2

          MEDICARE REQUIREMENTS ...................................................................................2

          MISCALCULATION OF BILLING UNITS ................................................................3

          RECOMMENDATIONS ...............................................................................................3

          HOSPITAL COMMENTS ............................................................................................3

APPENDIX

          HOSPITAL COMMENTS




                                                                    iii
                                       INTRODUCTION

BACKGROUND

Pursuant to Title XVIII of the Social Security Act (the Act), the Medicare program provides
health insurance for people age 65 and over and those who are disabled or have permanent
kidney disease. The Centers for Medicare & Medicaid Services (CMS) administers the program.

Outpatient Prospective Payment System

The Balanced Budget Act of 1997, P.L. No. 105-33, authorized the implementation of an
outpatient prospective payment system (OPPS) for hospital outpatient services furnished on or
after August 1, 2000.

Under the OPPS, Medicare payments for most outpatient services are based on ambulatory
payment classifications, which generally include payments for drugs billed as part of a service or
procedure. However, Medicare makes additional temporary payments, called transitional pass-
through payments, for certain drugs, biologicals, and devices. Medicare established a timeframe
of at least 2 years but no more than 3 years for providing these additional payments for a given
drug, biological, or device.

Oxaliplatin

Oxaliplatin is a chemotherapy drug used to treat colorectal cancer. Outpatient hospitals received
transitional pass-through payments for oxaliplatin furnished from July 1, 2003, through
December 31, 2005. Medicare required hospitals to bill one service unit for each 5 milligrams of
oxaliplatin that a beneficiary received using the Healthcare Common Procedure Coding System
(HCPCS) code C9205.

University of Arkansas for Medical Sciences Medical Center

University of Arkansas for Medical Sciences Medical Center (the hospital) is an acute-care
hospital in Little Rock, Arkansas, that has 400 Medicare-certified beds. The hospital’s Medicare
claims are processed and paid by Pinnacle Business Solutions, Inc., the fiscal intermediary for
Arkansas.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the hospital billed Medicare for oxaliplatin in
accordance with Medicare requirements.




                                                1
Scope

We reviewed 11 claims and the resulting 11 payments totaling $258,771 that Medicare made to
the hospital for oxaliplatin furnished to Medicare beneficiaries during calendar year (CY) 2005.

We limited our review of the hospital’s internal controls to those applicable to billing for
oxaliplatin services because our objective did not require an understanding of all internal
controls over the submission of claims. Our review allowed us to establish reasonable assurance
of the authenticity and accuracy of the information obtained from the CMS claim data for CY
2005, but we did not assess the completeness of the data.

We performed our audit work from February to June 2009.

Methodology

To accomplish our objective, we:

   •    reviewed applicable Medicare laws, regulations, and guidance;

   •    used CMS’s claim data for CY 2005 to identify Medicare claims for which the hospital
        billed at least 100 units of oxaliplatin services under HCPCS code C9205 and received
        Medicare payments for those units that were greater than $2,000, or claims with line
        items where the payment amount was greater than the charges and number of units was at
        least 100;

   •    contacted the hospital to determine whether the identified oxaliplatin services were billed
        correctly and, if not, why the services were billed incorrectly;

   •    obtained and reviewed records from the hospital that supported the identified claim; and

   •    repriced incorrectly billed services using ambulatory payment classification groups
        payment information for the billed HCPCS code.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our finding and conclusions based on our audit objective.

                           FINDING AND RECOMMENDATIONS

MEDICARE REQUIREMENTS

When hospitals submit Medicare claims for outpatient services, they must report the HCPCS
codes that describe the services provided, as well as the service units for the codes. The
Medicare Claims Processing Manual, Publication No. 100-04, chapter 4, section 20.4, states:


                                                 2
“The definition of service units … is the number of times the service or procedure being reported
was performed.” In addition, chapter 1, section 80.3.2.2, of the manual states: “In order to be
processed correctly and promptly, a bill must be completed accurately.”

CMS Transmittal A-03-051, Change Request 2771, dated June 13, 2003, instructed outpatient
hospitals to bill for oxaliplatin using HCPCS code C9205 to allow a transitional pass-through
payment under the OPPS. The description for HCPCS code C9205 is “injection, oxaliplatin, per
5 [milligrams].” Therefore, for each 5 milligrams of oxaliplatin administered to a patient,
outpatient hospitals should have billed Medicare for one service unit.

MISCALCULATION OF BILLING UNITS

The hospital did not bill Medicare for oxaliplatin in accordance with Medicare requirements.
Specifically, the hospital billed for 10 times the correct number of units on the claims for
oxaliplatin furnished to Medicare beneficiaries during CY 2005. During this period, the HCPCS
listed J9263 as another code for oxaliplatin services. The additional code, which had a billing
unit of 0.5 milligrams, caused confusion. On the 11 claims we reviewed, the hospital originally
billed using HCPCS code J9263 for oxaliplatin services. The hospital explained that Medicare
returned these claims stating that HCPCS code J9263 was not a valid code for OPPS. The
hospital then resubmitted the claims using the correct HCPCS code, C9205, for the oxaliplatin
services. However, on the resubmitted claims, the hospital calculated the number of units billed
to Medicare based on the 0.5-milligram unit amount of oxaliplatin associated with HCPCS code
J9263. Due to this billing unit error, the hospital received overpayments totaling $225,206 for
oxaliplatin furnished to hospital outpatients during CY 2005.

RECOMMENDATIONS

We recommend that the hospital:

   •   return the $225,206 overpayment to the fiscal intermediary and

   •   establish procedures to ensure that units of drugs billed correspond to units of drugs
       administered.

HOSPITAL COMMENTS

In its comments on our draft report, the hospital stated that it had repaid the overpayment and
instituted procedures and provided training to ensure that units of drugs billed correspond to
units of drugs administered. The hospital’s comments appear in their entirety as the Appendix.




                                                3
APPENDIX
                                                                                                          Page 1 of 3


                      APPENDIX: HOSPITAL COMMENTS




                                         UAMS
                                         UNIVERSITY Of ARKANSAS
                                          fOR MEDICAL SCIENCES



Robert W. Bishop, JD                                        Office of Institutional Com pliance
Vice Chancellor                                               4301 West Markham Street, #632
501-686-5699                                                       Little Rock, AR 72205-7199
501 -686-8 137 Fax


November 23, 2009


Patricia Wheeler
Regional Inspector General for Audit Services
Office of the Inspector Generdl
   Office of Audit Services, Region VI
1100 Commerce Street, Room 632
Dallas, TX 75242


        RE: Report Number A-06-09-00048


Dear Ms. Wheeler:

This letter is the response to the draft report entitled "Review of Ox ali platin Billing at University
of Arkansas for Medical Sciences Medical Center for Calendar Year 2005." With the exception
of statements contained in the Summary of Finding and Miscalculation of Bill ing Units secti ons,
the report is factually accurate and reasonable in its recommendations. Certain statements in the
above referenced sections tend to be misleading and we therefore recommend the wording in
those sections be changed to read as follows:

        SUMMARY OF FINDING

       The hospital did not bill Medicare for oxaliplatin in accordance with Med icare
       requirements. Specifically, the hosp ital initially billed using a HCpeS code that
       was not valid for OPPS but accurately reflected the service and units. The
       resubmittal using the Medicare required Hepes code inaccurately reflected the
       units which resulted in bil ling for 10 times the number of units that were actually
       administered on the claims. The hospital received overpayments totaling
       $225,206 for the excessive axaliplatin units that it billed during CY 2005. The
       overpayments resulted from confusion related to the existence of two oxaliplatin
       codes that had different billing unit sizes.
                                                                                                Page 2 of 3





Ms. Wheeler
November 23,2009
Page 2


       MISCALCULATION OF BILLING UNITS

       The hospital did not bill Medicare for oxaliplatin in accordance with Medicare
       requirements. During this period, the HereS listed J9263 as another code for
       oxaliplatin serv ices. The additional code, which had a billing unit of 0.5
       milligrams, caused confusion. On the 11 claims we reviewed, the hospital
       originally billed using HCPCS code J9263 for oxaliplatin services. The hospital
       explained that Medicare returned these claims stating that HCPCS code J9263
       was not a valid code for OPPS. The hospital then resubmitted the claims using
       the correct HCPCS code, C9205, for the oxaliplatin services. However, on the
       resubmitted claims, the hospital calculated the number of units billed to Medicare
       based on the D.S-milligram unit amount of oxaliplatin associated with HCPCS
       code 19263. As a result, the hospital bills reflected 10 times the correct number of
       units on the claim for oxaliplatin furn ished to Medicare beneficiaries during CY
       2005. Due to this billing unit error, the hospital received overpayments totaling
       $225,206 for oxaliplatin furnished to hospital outpatients during CY 2005.



UAMS has complied with the report' s recommendations in that the eleven claims have been
resubmitted and the overpayment has been returned to the fiscal intennediary; additional ly,
UAMS has in~titutcd a regular audit protocol for chemotherapy drugs and has provided
mandatory educational sessions for the billing, pharmacy and charging staff to prevent such
errors in the future. These changes are in addition to ex isting controls which include:

   I. Daily revenue is monitored to detennine if charging errors may exist.
   2. System edits are maintained to insure certain elements are present on each keyed or
      submitted charge.
   3. Electronic claims system contains edits. Claims are sent to payers when all edits are
      cleared.
   4. Hospital Compliance performs monthly coding audits of random departments in the
      HospitaL and clinics. The areas change on a monthly basis. All procedure codes and
      diagnosis codes are reviewed for accuracy.
   5. A Hospital Compliance Manager is a member of the Charge Description Master (COM)
      Committee and approves all HCPC code changes and revisions.
   6. Hospital Compliance perfonns monthly random audits ofUB92s (now UB04s).
   7. All applicable infonnation that is disseminated by Medicare/Medicaid, including the OlG
      Workplan, is monitored by Hospital Compliance staff.
   8. Specialized education is provided by Hospital Compliance to coders, billers. financial
      staff, and Department Directors and managers.
   9. Hospital Compli ance perfonns audits of Hospital operations.
                                                                                                     Page 3 of 3





Ms. Wheeler
November 23,2009
Page 3

      10. Claims scrubbing software that provides robust Medicare editing.

              or your consideration. Please let me know if you require any additional information.



             Yours,         //     I (]
Robert Bishop,   ESqUl f~
Vice Chancellor for Instituti onal Compliance


RWB/dsc


CC:      Paul Chesser, Audit Manager
         Office ofInspector General, Office of Audit Services
         11300 North Rodney Parham Suite 205
         Little Rock, AR 72212
